           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   SUPPLEMENTAL SECURITY INCOME
 RECIPIENTS WITH AUTOMATED TELLER
MACHINE WITHDRAWALS INDICATING THEY
  ARE OUTSIDE OF THE UNITED STATES

      April 2008   A-01-07-17036




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      April 23, 2008                                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Supplemental Security Income Recipients with Automated Teller Machine Withdrawals
           Indicating They Are Outside the United States (A-01-07-17036)


           OBJECTIVE
           Our objective was to determine whether automated teller machine (ATM) withdrawal
           data can be used to identify Supplemental Security Income (SSI) recipients who may
           not be eligible for payments because they are outside the United States for more than
           30 days.

           BACKGROUND
           SSI is a nation-wide Federal cash assistance program administered by the Social
           Security Administration (SSA) that provides a minimum level of income to financially
           needy individuals who are aged, blind or disabled. 1 Generally, an individual is ineligible
           for SSI payments for any month throughout which he or she is absent from the
           United States. Additionally, an individual who re-enters the United States after such
           absence may not be eligible for SSI payments again until he or she has been
           continuously present in the United States for at least 30 consecutive days. 2

           SSI recipients are required to report events and changes of circumstances that may
           affect their eligibility and payment amounts—including departures from the
           United States. 3 SSA has taken proactive steps to detect unreported residency
           violations, including
                    matching SSI recipient data with the Department of Homeland Security’s records
                     of individuals who voluntarily leave or are deported;



           1
               The Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
           2
               The Social Security Act § 1611(f)(1), 42 U.S.C. § 1382(f)(1); 20 C.F.R. § 416.215.
           3
               20 C.F.R. § 416.701; 20 CFR § 416.708(m) & (n).
Page 2 - The Commissioner


       entering into agreements with a number of States regarding the possible use of
        State Medicaid Investigators to conduct home visits for SSI recipients; 4
       conducting redeterminations periodically—generally every 1 to 6 years—to
        determine whether recipients are still eligible to receive SSI payments; and
       completing an assessment review in which they examined images of SSI checks,
        looking for any that were endorsed by a financial institution outside the
        United States.

In July 2003, the Government Accountability Office (GAO) issued a report SSI: SSA
Could Enhance Its Ability to Detect Residency Violations (GAO-03-724). This report
noted that overpayments resulting from residency violations totaled about $118 million
between 1997 and 2001. The $118 million, however, only represented violations
detected by SSA. Further, the report noted that recipients born outside the
United States accounted for at least 87 percent of these overpayments. Therefore,
GAO recommended that SSA study the feasibility of expanding the type of information
the Agency obtains from financial institutions, such as ATM withdrawal records, to help
identify SSI recipients who may be accessing their SSI payments outside the United
States for extended periods of time.

To accomplish our objective, we obtained a file of all foreign-born, U.S. citizens
receiving SSI payments via direct deposit as of May 2006. We selected a random
sample of 250 recipients from 1 bank for detailed analysis. For purposes of this audit,
we considered the characteristics and findings observed for the selected bank to be
representative of any bank providing services to SSI recipients. For each sampled
case, we subpoenaed bank statements for a 24-month period. For those with foreign
activity spanning more than 30 days, we then requested that SSA’s Office of Operations
contact the recipients to determine whether they were absent from the United States. 5
(For additional scope and methodology information, see Appendix B of this report.)

RESULTS OF REVIEW
Of the 250 SSI recipients in our sample, we found that 10 were overpaid
$55,767 because they did not report their absence from the United States. 6 Based on
our sample results, we estimate that overpayments totaling approximately
$226.2 million went undetected because about 40,560 recipients did not inform SSA of
their absence from the United States. Additionally, based on our sample results, we

4
 These States include Arkansas, California, Iowa, Louisiana, Maine, New Hampshire, New Mexico,
Oklahoma, South Dakota, Texas, and Wyoming. SSA, 2007 SSI Annual Report, page 6.
5
 Under SSA’s due process procedures, it had to contact/attempt to contact the recipient before assessing
an overpayment and/or stopping payments. 20 C.F.R. § 416.558.
6
  We found these 10 individuals were ineligible for SSI payments for an average of 17 months because
they were absent from the United States. We also found cases with potential income and/or resource
violations, which were forwarded to SSA’s Office of Operations for further development under a separate
audit, SSI Recipients with Excess Income and/or Resources (A-01-08-18022).
Page 3 - The Commissioner


estimate SSA will continue to not detect approximately $100.5 million each year to
recipients who are absent from the United States if action is not taken by the Agency. 7

SSI RECIPIENTS WHO WERE ABSENT FROM THE UNITED STATES – WITH
OVERPAYMENTS

We found 10 recipients were overpaid because their absence from the United States
went undetected by SSA. 8 Of these 10 recipients, 4 were assessed overpayments
totaling $21,784. 9

For example, we found foreign activity on the bank statements of one SSI recipient for
the period August 2005 through June 2006. The last redetermination SSA had
scheduled and processed for this individual was in May 2003. At our request, SSA
contacted the individual and determined the individual, in fact, had been absent from the
United States for the time period and was therefore overpaid $6,184. Subsequently,
SSA assessed an additional overpayment of $5,984 because of eligibility violations
unrelated to residency requirements, resulting in a total overpayment of $12,168. The
individual returned to the United States in June 2006 and was again eligible to receive
SSI payments. 10

SSI RECIPIENTS POSSIBLY STILL ABSENT FROM THE UNITED STATES

Six recipients did not respond to SSA’s contact attempts and, as a result, the Agency
suspended their payments. Assuming these six individuals were outside the
United States—and had been since the foreign ATM activity appeared on their bank
statements—we estimate they may have been overpaid as much as $33,982. 11
Further, because SSA stopped the monthly payments to these individuals, we estimate
it saved about $14,856 that otherwise would have been paid over the next 12 months. 12
7
 This estimate is based on our finding that 10 cases were overpaid $24,773 during the last 12-month
period for which we obtained bank statements—March 2006 to February 2007.
8
 Of the remaining 240 recipients in our sample, 228 did not have foreign transactions on their bank
statements; 7 had some foreign transactions, but they appeared to indicate the recipients had been
outside of the United States for less than 30 consecutive days; 4 died before we could solicit their bank
statements; and 1 individual’s bank statements were not available for us to review.
9
 As of January 2008, three recipients had returned to the United States, re-established their eligibility for
SSI payments, and were subsequently overpaid $9,757, while one recipient was still outside the country
and overpaid $12,027.
10
  SSA will recover this overpayment by withholding $50 a month from the recipient’s monthly payment.
Therefore, it could take over 20 years for this overpayment to be fully collected.
11
  Because SSA was unable to contact the recipients, the Agency could not determine the precise periods
during which they were outside the United States. It is possible that these recipients left the
United States before the dates we first identified foreign activity on their bank statements.
12
  Of the six cases, SSA suspended three before we completed our audit, while the other three were
suspended as a result of our findings.
Page 4 - The Commissioner


For example, we found foreign activity on the bank statements of one SSI recipient for
the period March 2005 through March 2007. The last redetermination SSA had
scheduled and processed for this individual was in October 2004. At our request, SSA
attempted to contact the individual to determine whether the person was absent from
the United States. The individual did not respond to SSA’s contact attempts, and, as a
result, the Agency suspended his SSI payments. If the recipient was outside the
United States—and had been since the foreign activity appeared on his bank
statements—we estimate the individual was overpaid as much as $7,617.

ISSUES RELATED TO BANK STATEMENT ANALYSIS

To obtain the financial information of SSI recipients, the Office of the Inspector General
issued subpoenas pursuant to the Right to Financial Privacy Act. 13 The whole
process—from obtaining and analyzing the data to SSA taking action on the cases—
lasted from January through December 2007.

The process of collecting and manually analyzing paper bank statements was a labor-
intensive process. The Bank provided us paper bank statements (not electronic), and,
as a result, we had to analyze an average of 90 pages per SSI recipient. 14

We paid $4,303 for the bank statement data we obtained. 15 However, based on our
review, $75,745 in overpayments was found—resulting in a cost-benefit ratio of
$17 to $1. 16 We believe SSA may achieve greater savings in the long-term if it could
automate the process of obtaining and reviewing electronic bank information.
Therefore, we did not include the personnel costs associated with our analysis in our
cost-benefit ratio.




13
   See 12 U.S.C. § 3401, et seq. SSA has authority, pursuant to § 1631(e)(1)(B) of the Social Security
Act, 42 U.S.C. 1383(e)(1)(B), to require that SSI applicants and recipients allow the Agency permission to
access their individual financial records. As set forth in SSA’s regulations, 20 C.F.R. § 416.207, SSA
requires that SSI applicants and recipients allow the Agency permission to access their individual
financial records to become/remain eligible for SSI payments.
14
   SSA began a test project in 2005 to detect unreported bank accounts and measure the reasonableness
of automating the financial account verification process by contracting with a third-party vendor to assist
in verifying SSI recipients’ resources. SSA found that there was value in receiving this electronic bank
data, yet the Agency’s budget was not sufficient to support a nation-wide implementation for the project.
15
   We were charged $11 per hour for research and $0.25 per statement page, which was in accordance
with the Right to Financial Privacy Act and Federal regulations, as established by the Board of Governors
of the Federal Reserve System (12 C.F.R. § 219.3).
16
   This includes (a) $61,822 in overpayments to 10 recipients in our sample whose absence from the
United States had not previously been reported to SSA, (b) $7,701 in overpayments to the spouses of
3 recipients who were also absent from the United States, and (c) $6,222 in overpayments in 3 cases that
were not related to residency violations, but were detected when the Agency reviewed the cases at our
request.
Page 5 - The Commissioner


CONCLUSION AND RECOMMENDATION
Despite SSA’s efforts to identify residency violations, we estimate a substantial number
of violations have not been detected, resulting in millions of dollars in overpayments.
Specifically, we estimate that overpayments totaling approximately $226.2 million to
about 40,560 recipients went undetected because SSA was unaware the recipients
were absent from the United States.

The Agency relies considerably on individuals self-reporting their absences from the
United States. However, because reporting such events may result in ineligibility for
SSI payments, there is no incentive for recipients to report them to SSA. Therefore, we
believe SSA should explore alternatives that might help it detect unreported residency
violations.

Since the process of collecting and manually analyzing paper bank statements was a
labor-intensive process, we recommend that SSA:

   1. Assess the feasibility of obtaining electronic bank statement information to
      include transaction-level data so that foreign transactions may be identified and
      investigated for possible residency violations.

AGENCY RESPONSE
SSA agreed with the recommendation. (See Appendix C.)




                                                Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Sampling Methodology and Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
ATM      Automated Teller Machine
C.F.R.   Code of Federal Regulations
GAO      Government Accountability Office
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                                     Appendix B

Scope, Sampling Methodology and Results
To accomplish our objective, we:

     Reviewed applicable sections of the Social Security Act and other relevant
      legislation, as well as the Social Security Administration’s (SSA) regulations, rules,
      policies, procedures, and relevant reports.

     Reviewed prior Office of the Inspector General audits and Government
      Accountability Office reports.

     Obtained a file of all 1,014,185 foreign-born, U.S. citizens receiving Supplemental
      Security Income (SSI) payments via direct deposit as of May 2006. We then sorted
      the population by count of SSI recipients under each bank institution (see Table 1).

                 Table 1: Total Population by Bank
                                                         Number of          Percent of All
                                Bank                     Recipients          Recipients
                 Bank A                                      253,696               25%
                 Bank B                                      118,021               12%
                 Bank C                                       82,618                8%
                 Bank D                                       48,734                5%
                 Bank E                                       45,542                4%
                 Sub-Total (Top 5 Banks)                     548,611               54%
                                     1
                 All Other Banks                             465,574               46%
                 Total (All Banks)                          1,014,185              100%

     Selected one of the top five banks from our population, Bank D, for further review.
      For audit purposes, we considered the characteristics and findings observed for
      Bank D to be representative of any bank providing services to the population of
      approximately one million recipients. Of the 48,734 SSI recipients with direct deposit
      at Bank D, we selected a random sample of 250 for detailed analysis.

     For each sampled case, we subpoenaed bank statements from Bank D for the
      period March 2005 through February 2007. We examined the transaction history
      section of the bank statements and identified any reference to a foreign address on
      any type of transaction, specifically automated teller machine transactions. If a


1
    Each bank had less than 4 percent of the total population of SSI recipients.


                                                      B-1
      transaction with a foreign address was found, we further examined the bank account
      history to find situations where foreign addresses were found in the transaction
      activity for a period of more than 30 days, based on the posted transaction dates.

     For each case in which foreign activity was found on the bank statements, we
      requested that SSA’s Office of Operations contact the recipients to determine
      whether they were absent from the United States.

We conducted our audit in Boston, Massachusetts, between March and
December 2007. We tested the data obtained in our audit and determined them to be
sufficiently reliable to meet our objective. The entities audited were SSA’s field offices
under the Deputy Commissioner for Operations. We conducted this performance audit
in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

SAMPLE RESULTS AND ESTIMATES/PROJECTIONS

Table 2: Population and sample size
All foreign-born, United States citizens receiving SSI payments via                 1,014,185
direct deposit as of May 2006
Population Size (that is, recipients above with direct deposit at Bank D)              48,734
Percent of recipients with bank accounts at Bank D                                            5
Sample Size (that is, recipients sampled from the population of Bank D                    250
customers)


                                                             Results and
    Table 3: Number of SSI Recipients                                         Estimate in All
                                                            Projections to
    with Undetected Residency Violations                                          Banks
                                                               Bank D
 Identified in Sample                                                   10
 Point Estimate                                                       1,949          40,560
 Projection Lower Limit                                               1,068
 Projection Upper Limit                                               3,257
      Note: All projections are at the 90-percent confidence level.




                                                      B-2
    Table 4: Amount of Undetected SSI                        Results and
                                                                                     Estimate in All
    Overpayments Resulting from                             Projections to
                                                                                         Banks
    Residency Violations                                       Bank D
    Identified in Sample                                              $55,767
    Point Estimate                                              $10,870,967           $226,231,618
    Projection Lower Limit                                        $3,958,364
    Projection Upper Limit                                     $17,783,569 2
      Note: All projections are at the 90-percent confidence level.



    Table 5: Amount of SSI Overpayments                      Results and
                                                                                     Estimate in All
    SSA Could Fail to Detect Due to                         Projections to
                                                                                         Banks
    Residency Violations Each Year                             Bank D
    Identified in Sample                                              $24,773
    Point Estimate                                                $4,829,095          $100,496,485
    Projection Lower Limit                                        $1,912,495
    Projection Upper Limit                                      $7,745,695 3
      Note: All projections are at the 90-percent confidence level.




2
 The spread between the lower and upper limits of this projection is from about $4 million to $18 million.
We determined both large and small dollar findings exist, as the 10 findings for this projection range from
$926 to $13,449. The mean of our 10 findings is $5,577 and the median is $3,931.
3
 The spread between the lower and upper limits of this projection is from about $2 million to $8 million.
We determined both large and small dollar findings exist, as the 10 findings for this projection range from
$312 to $5,670. The mean of our 10 findings is $2,477 and the median is $2,083.


                                                      B-3
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      April 15, 2008                                                        Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Supplemental Security Income Recipients
           with Automated Teller Machine Withdrawals Indicating They Are Outside the United States”
           (A-01-07-17036)—INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our response to the recommendation is
           attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“SUPPLEMENTAL SECURITY INCOME RECIPIENTS WITH AUTOMATED
TELLER MACHINE WITHDRAWALS INDICATING THEY ARE OUTSIDE THE
UNITED STATES” (A-01-07-17036)

Thank you for the opportunity to review and comment on this draft report. We agree that
identifying recipients who are ineligible for Supplemental Security Income (SSI) due to
residency violation is a difficult, but necessary, task in the effective stewardship of our program.

However, we believe the benefit-to-cost ratio of 17:1, on Page 4 of the report, is overstated. The
report acknowledges that personnel costs were not included in the benefit-to-cost calculation.
The 17:1 ratio is based solely on the amount of detected overpayment and the cost of
reimbursing the financial institutions for providing financial account transaction data. The report
does not take into account: 1) that historically, only about 60 percent of SSI debt is recovered;
2) that in addition to the personnel costs (including overhead and benefits) associated with
requesting financial account transaction data, processing and analyzing the responses, and
verifying/developing whether there was a residency violation, there are also personnel costs
associated with developing and recovering the resultant overpayments; and 3) the costs
associated with having an outside contractor involved in the process, especially in the conversion
of hardcopy transaction data into electronic format. The influence of these factors on a benefit-
to-cost analysis can be considerable and should be presented.

Recommendation 1

Assess the feasibility of obtaining electronic bank statement information to include transaction-
level data so that foreign transactions may be identified and investigated for possible residency
violations.

Comment

We agree and will analyze the feasibility of obtaining electronic bank statement information that
includes transaction-level data. We plan to complete the analysis no later than June 2008.




                                                C-2
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   Jeffrey Brown, Audit Manager, (617) 565-1814

   David Mazzola, Audit Manager, (617) 565-1807

Acknowledgments

In addition to those named above:

   Chad Burns, Auditor

   Kevin Joyce, IT Specialist


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-07-17036.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and procedures,
internal controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and
Quality Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                        Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
